<html>
<title> - POROUS BORDERS AND DOWNSTREAM COSTS: THE COST OF ILLEGAL IMMIGRATION ON STATE, COUNTY AND LOCAL GOVERNMENTS</title>
<body><pre>[House Hearing, 109 Congress]
[From the U.S. Government Printing Office]




 
POROUS BORDERS AND DOWNSTREAM COSTS: THE COST OF ILLEGAL IMMIGRATION ON 
                  STATE, COUNTY AND LOCAL GOVERNMENTS

=======================================================================

                                HEARING

                               before the

                              COMMITTEE ON
                           GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED NINTH CONGRESS

                             SECOND SESSION

                               __________

                            AUGUST 14, 2006

                               __________

                           Serial No. 109-188

                               __________

       Printed for the use of the Committee on Government Reform


  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html
                      http://www.house.gov/reform


                                 ______

                    U.S. GOVERNMENT PRINTING OFFICE
30-527                      WASHINGTON : 2006
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

                     COMMITTEE ON GOVERNMENT REFORM

                     TOM DAVIS, Virginia, Chairman
CHRISTOPHER SHAYS, Connecticut       HENRY A. WAXMAN, California
DAN BURTON, Indiana                  TOM LANTOS, California
ILEANA ROS-LEHTINEN, Florida         MAJOR R. OWENS, New York
JOHN M. McHUGH, New York             EDOLPHUS TOWNS, New York
JOHN L. MICA, Florida                PAUL E. KANJORSKI, Pennsylvania
GIL GUTKNECHT, Minnesota             CAROLYN B. MALONEY, New York
MARK E. SOUDER, Indiana              ELIJAH E. CUMMINGS, Maryland
STEVEN C. LaTOURETTE, Ohio           DENNIS J. KUCINICH, Ohio
TODD RUSSELL PLATTS, Pennsylvania    DANNY K. DAVIS, Illinois
CHRIS CANNON, Utah                   WM. LACY CLAY, Missouri
JOHN J. DUNCAN, Jr., Tennessee       DIANE E. WATSON, California
CANDICE S. MILLER, Michigan          STEPHEN F. LYNCH, Massachusetts
MICHAEL R. TURNER, Ohio              CHRIS VAN HOLLEN, Maryland
DARRELL E. ISSA, California          LINDA T. SANCHEZ, California
JON C. PORTER, Nevada                C.A. DUTCH RUPPERSBERGER, Maryland
KENNY MARCHANT, Texas                BRIAN HIGGINS, New York
LYNN A. WESTMORELAND, Georgia        ELEANOR HOLMES NORTON, District of 
PATRICK T. McHENRY, North Carolina       Columbia
CHARLES W. DENT, Pennsylvania                    ------
VIRGINIA FOXX, North Carolina        BERNARD SANDERS, Vermont 
JEAN SCHMIDT, Ohio                       (Independent)
BRIAN P. BILBRAY, California

                      David Marin, Staff Director
                Lawrence Halloran, Deputy Staff Director
                       Teresa Austin, Chief Clerk
          Phil Barnett, Minority Chief of Staff/Chief Counsel


                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on August 14, 2006..................................     1
Statement of:
    Becerra, Hon. Xavier, a Representative in Congress from the 
      State of California........................................     5
    Unzueta, Miguel, Special Agent in Charge of San Diego SAC, 
      U.S. Immigration and Customs Enforcement; William B. 
      Kolender, sheriff, San Diego County; Bill Horn, chairman, 
      San Diego Board of Supervisors; Steven A. Escoboza, 
      president and CEO, Hospital Association of San Diego and 
      Imperial County; Denise Moreno Ducheny, State Senator, 40th 
      District, San Diego, CA; and Bronwen Anders, professor of 
      pediatrics, University of California at San Diego, former 
      president, San Diego Chapter, American Academy of 
      Pediatrics.................................................    12
        Anders, Bronwen..........................................    53
        Ducheny, Denise Moreno...................................    46
        Escoboza, Steven A.......................................    38
        Horn, Bill...............................................    34
        Kolender, William B......................................    28
        Unzueta, Miguel..........................................    12
Letters, statements, etc., submitted for the record by:
    Anders, Bronwen, professor of pediatrics, University of 
      California at San Diego, former president, San Diego 
      Chapter, American Academy of Pediatrics, prepared statement 
      of.........................................................    55
    Davis, Chairman Tom, a Representative in Congress from the 
      State of Virginia, prepared statement of...................     3
    Dreier, Hon. David, a Representative in Congress from the 
      State of California, prepared statement of.................     7
    Ducheny, Denise Moreno, State Senator, 40th District, San 
      Diego, CA, prepared statement of...........................    50
    Escoboza, Steven A., president and CEO, Hospital Association 
      of San Diego and Imperial County, prepared statement of....    41
    Horn, Bill, chairman, San Diego Board of Supervisors, 
      prepared statement of......................................    36
    Kolender, William B., sheriff, San Diego County, prepared 
      statement of...............................................    31
    Unzueta, Miguel, Special Agent in Charge of San Diego SAC, 
      U.S. Immigration and Customs Enforcement, prepared 
      statement of...............................................    15


POROUS BORDERS AND DOWNSTREAM COSTS: THE COST OF ILLEGAL IMMIGRATION ON 
                  STATE, COUNTY AND LOCAL GOVERNMENTS

                              ----------                              


                        MONDAY, AUGUST 14, 2006

                          House of Representatives,
                            Committee on Government Reform,
                                                     San Diego, CA.
    The committee met, pursuant to notice, at 11 a.m., at the 
San Diego county Administration Center, room 310 and 410, 1600 
Pacific Highway, San Diego, CA, Hon. Tom Davis (chairman of the 
committee) presiding.
    Present: Representative Tom Davis.
    Also present: Representative Becerra.
    Staff present: Larry Halloran, deputy staff director; 
Teresa Austin, chief clerk; Stephen Castor, counsel; Allyson 
Blandford, office manager; and Michael McCarthy, minority 
professional staff member.
    Chairman Tom Davis. Good morning. The committee will come 
to order. I want to welcome our guests to today's hearing.
    Porous borders exact a high price. Ineffective immigration 
enforcement undermines respect for law. It threatens national 
security. The steady flow of illegal immigration also passes 
unpredictable and largely unreimbursed costs on to States and 
counties already struggling to maintain safe, healthy, and 
prosperous communities. That de facto unfunded mandate is 
draining local law enforcement, health care, and education 
budgets.
    Today we're convening in San Diego to learn more about the 
intergovernmental impact of illegal immigration and to discuss 
the urgent need for enhanced border security. We particularly 
want to hear local assessments of efforts to strengthen 
enforcement in what is called the internal border where 
undocumented aliens apply for work, official documents, and 
public benefits. As the people of this area know only too well, 
no effort to harden or patrol the international boundary will 
ever be 100 percent effective. And those who enter legally but 
subsequently violate the terms of their visa should be detected 
and detained by vigilant internal enforcement systems. So we 
asked our witnesses this morning to give us the benefit of 
their experience and their guidance regarding the costs of 
illegal immigration and effective ways to limit those costs.
    The current failure of enforcement is being felt throughout 
the Nation as the tide of undocumented aliens swells well 
beyond the six traditional settlement States of California, New 
York, Texas, Florida, Illinois, and New Jersey. As of last 
April, legislatures in 43 States considered bills on 
immigration issues. Attempting to fill the vacuum left by 
earnest but hopelessly understaffed Federal efforts, States 
sought to control access to education and other public 
benefits, strengthen employment verification, punish human 
trafficking, strengthen eligibility requirements for 
identifying documents and voting, and coordinating law 
enforcement. County governments and mayors have similarly taken 
steps to regain some control over their fiscal fate.
    Obviously, when Washington fails to exercise sovereign 
control over what is pouring into the national melting pot, 
States, counties, and cities feel the heat. Although difficult 
to quantify precisely, the impact of illegal immigration on 
State, county, and city budgets is undeniably growing. 
According to one estimate, those without a legal right to be 
here generate net fiscal costs approaching $10 billion 
nationally. The State of California is reported to have spent 
almost $3 billion in a single year providing services to 
illegal immigrants. By one estimate, the county of San Diego 
spends more than $50 million a year to arrest, jail, prosecute, 
and defend illegal immigrants. Of that, Federal reimbursement 
covers only about $2 million.
    The health care system, already under severe strain, risks 
being swamped by a continuing flood of uninsured illegal 
immigrants, many of whom use hospital emergency rooms for 
primary care. Federal law requires emergency medical 
departments to treat everyone. The national costs of such 
mandated free health services exceeds $1 billion annually. This 
year Federal reimbursements will cover only one quarter of that 
total. States, counties, and cities have a right to expect that 
fiscal security will only come when the Federal Government 
focuses on effective border security.
    Decades-long neglect of the sovereign responsibility to 
adequately police national boundaries and enforce national laws 
has transferred immense burdens downstream to local taxpayers. 
Any serious immigration reform must take account of those 
ingovernmental impacts and protect States and localities from 
fiscal shockwaves. From that perspective, effective external 
and internal enforcement programs are essential prerequisites 
to broader immigration reforms. Otherwise, any new immigration 
law will suffer the fate of the last effort 20 years ago when 
good intentions were overwhelmed by weak follow through.
    When your basement's flooding, you plug the leaks first, 
and then you start the remodeling job. Plugging our porous 
immigration system using Federal dollars will free States and 
counties to focus on their core responsibilities: To protect 
the health and safety of all those seeking to build a better 
community.
    This morning, we're going to hear testimony from six 
witnesses. Each of them brings a depth of experience and 
insight on this important discussion, and we look forward to 
their testimony. And without objection, the gentleman from 
California's 31st District, Mr. Becerra, will sit with the 
committee today.
    [The prepared statement of Chairman Tom Davis follows:]

    [GRAPHIC] [TIFF OMITTED] T0527.001
    
    [GRAPHIC] [TIFF OMITTED] T0527.002
    
    Chairman Tom Davis. And, Mr. Becerra, you're recognized for 
an opening statement. Thank you for being with us.

STATEMENT OF HON. XAVIER BECERRA, A REPRESENTATIVE IN CONGRESS 
                  FROM THE STATE OF CALIFORNIA

    Mr. Becerra. Mr. Chairman, thank you very much for allowing 
me to sit. And thank you for being here. I want to thank in 
advance the witnesses who will testify for their participation. 
And certainly, we want to thank all those who have taken the 
interest in being here as well on an issue that most of us 
consider very important.
    Nobody questions that immigration by undocumented 
immigrants creates costs for States and local governments, 
costs that are most severe here in the State of California. But 
we can't lose sight of the other side of the ledger as well as 
talk about this issue, the benefits that immigrants bring to 
our local economies and our local communities.
    [Audience boos and hisses.]
    Mr. Becerra. A thorough examination of immigration policy 
requires consideration of the overall impact of immigration and 
immigrants on America, and that means looking at both the costs 
and the benefits. That is why I believe we need effective 
comprehensive immigration reform that addresses both costs and 
benefits, not just a one-sided enforcement only approach.
    In their prepared testimony, our witnesses describe very 
persuasively the costs that immigration creates for local law 
enforcement and health care. These problems are real, but 
unfortunately, they are not new. They can be traced back to the 
failures of our Federal immigration policy. Failure to 
recognize the demand for immigrant labor in our economy, 
failure of the Federal Government to fund the needs of State 
and local government, failure of the Federal Government to 
repay State and local governments for unfunded mandates, and 
the failure to secure our borders. In short, Mr. Chairman, our 
immigration system is broken and the Federal Government has 
failed to respond.
    Congress has an obligation to enact practical, effective 
immigration reform and to do it now. This is the third hearing 
in the House----
    [Audience cheers and applauds.]
    Chairman Tom Davis. Please. You're our guests here. We're 
happy to have you here, but we don't want you interrupting the 
speakers in debate.
    Go ahead, Mr. Becerra.
    Mr. Becerra. Thank you, Mr. Chairman.
    This is I believe the third hearing that's being held here 
in San Diego on the part of the House of Representatives. And 
it's a hearing to discuss a bill that the House has already 
passed. I want us to think about this for just a second. The 
House of Representatives back in December 2005 passed 
legislation to change our immigration laws, the Senate back in 
July did the same, and today, we're holding a hearing. 
Throughout this month we're holding any number of hearings--I 
believe it's about 21 hearings, the House of Representatives 
will be holding throughout the Nation. And we're holding them 
after the bill has already been passed. That's very similar to 
a parachutist saying that he's going to jump from a plane and 
pack his parachute after he's jumped. You have to look before 
you leap. In this case, the House of Representatives leapt back 
in December 2005, and now we're being told let's take a look. 
That's not the way you make policy. We don't need more 
hearings, we need action.
    Instead of spending the summer on a taxpayer-funded 
traveling hearing or press conference, the House should be 
working with the Senate to pass effective bipartisan 
immigration reform. We need practical, comprehensive reforms 
that secure our Nation's homeland, recognize the role of 
immigration in our economy and our communities, and does credit 
to America's creed as the land of opportunity.
    Mr. Chairman, I'm pleased to be here. I look forward to the 
testimony, and I hope before we conclude this session of the 
House of Representatives and the Senate come late September, 
early October that we will have a bill that's comprehensive in 
its approach to immigration reform that the President will sign 
and move this Nation forward. Yield back.
    Chairman Tom Davis. All right. Thank you very much, Mr. 
Becerra.
    And again, failure of Congress to act means the status quo. 
That continues to mean unfunded mandates on State and local 
governments.
    I'd ask unanimous consent to insert into the record a 
statement by Representative David Dreier of California without 
objection.
    [The prepared statement of Hon. David Dreier follows:]

    [GRAPHIC] [TIFF OMITTED] T0527.003
    
    [GRAPHIC] [TIFF OMITTED] T0527.004
    
    [GRAPHIC] [TIFF OMITTED] T0527.005
    
    [GRAPHIC] [TIFF OMITTED] T0527.006
    
    [GRAPHIC] [TIFF OMITTED] T0527.007
    
    Chairman Tom Davis. Now, Members will have 7 days to submit 
opening statements for the record.
    I'm going to now recognize our panel of witnesses: Mr. 
Miguel Unzueta, the Special Agent in Charge of San Diego SAC, 
U.S. Customs and Immigration Enforcement; Mr. William Kolender, 
the sheriff, San Diego County; Supervisor Bill Horn, the 
chairman of the San Diego Board of Supervisors; Mr. Steven A. 
Escoboza, the president and CEO of the Hospital Association of 
San Diego and Imperial Counties; State Senator Denise Moreno 
Ducheny, the 40th District, thank you very much for being with 
us, Senator; and Dr. Bronwen Anders, who is a professor of 
pediatrics at the University of California at San Diego and 
former president of San Diego Chapter of American Academic of 
Pediatrics.
    It's a policy of our committee that we swear all witnesses 
before you testify. So if you'd just rise with me and raise 
your right hands.
    [Witnesses sworn.]
    Chairman Tom Davis. Senator, I know you have to catch a 
plane and be out of here no later than 12:15. So I think we 
will get to you in plenty of time, but hopefully the hearing 
won't take too long and we can get through some questions with 
you as well. I will start, Mr. Unzueta, with you, and we will 
move straight down.
    We have a light, I think, in front of you that goes orange 
after 4 minutes and red after 5. I think that's correct. Try to 
keep it to 5 minutes. Your entire statement is in the record 
and the questions that we've prepared at least based on the 
entire statement that we put in the record. So if we can keep 
to 5 minutes, we can move this along. Thank you very much for 
being with us, and thank you for your service to the country.

 STATEMENTS OF MIGUEL UNZUETA, SPECIAL AGENT IN CHARGE OF SAN 
DIEGO SAC, U.S. IMMIGRATION AND CUSTOMS ENFORCEMENT; WILLIAM B. 
 KOLENDER, SHERIFF, SAN DIEGO COUNTY; BILL HORN, CHAIRMAN, SAN 
 DIEGO BOARD OF SUPERVISORS; STEVEN A. ESCOBOZA, PRESIDENT AND 
  CEO, HOSPITAL ASSOCIATION OF SAN DIEGO AND IMPERIAL COUNTY; 
DENISE MORENO DUCHENY, STATE SENATOR, 40TH DISTRICT, SAN DIEGO, 
CA; AND BRONWEN ANDERS, PROFESSOR OF PEDIATRICS, UNIVERSITY OF 
 CALIFORNIA AT SAN DIEGO, FORMER PRESIDENT, SAN DIEGO CHAPTER, 
                 AMERICAN ACADEMY OF PEDIATRICS

                  STATEMENT OF MIGUEL UNZUETA

    Mr. Unzueta. Thank you, Chairman Davis and Congressman 
Becerra. It's an honor for me to appear before you today 
representing U.S. Immigration and Customs Enforcement [ICE], to 
discuss our efforts in combating illegal immigration within the 
interior of the United States, specifically in the areas of 
work site enforcement and document fraud. ICE's current work 
site enforcement strategy is part of a comprehensive layered 
approach that focuses on how illegal aliens get into our 
country, the ways in which they obtain identity documents 
allowing them to become employed, and the employers who 
knowingly hire them.
    ICE is bringing criminal prosecutions and using asset 
forfeiture as tools against employers of unauthorized workers 
rather than to rely upon administrative fines as sanctions 
against such activity. Using this approach, ICE work site 
investigations now support felony charges and not just the 
traditional misdemeanor work site violations. Of course, a key 
component of our work site enforcement efforts targets the 
businesses and industries that deliberately profit from the 
wholesale employment of unauthorized workers.
    In April 2006, ICE conducted the largest work site 
enforcement operation ever undertaken. This case involved IFCO 
Systems, a Houston based pallet supply company. ICE agents 
executed 9 Federal arrest warrants, 11 search warrants, and 41 
consent searches at IFCO work site locations throughout the 
United States. In addition, ICE agents apprehended 1,187 
unauthorized workers at IFCO work sites. This coordinated 
enforcement operation also involved investigative agents--
agents from the--and officers from the Department of Labor, the 
Social Security Administration, the Internal Revenue Service, 
and the New York State Police.
    The criminal defendants have been charged with conspiracy 
to transport and harbor unlawful aliens for financial gain as 
well as fraud and misuse of immigration documents. ICE has 
launched several investigations to enhance national security 
and public safety here in California and throughout the Nation. 
Operations Tarmac and Glowworm are national initiatives focused 
on securing the Nation's airports and nuclear facilities 
respectively, including such facilities here in California.
    Operation Safe Cities, as an ICE initiative, started in 
December 2003 to identify and remove unauthorized employees 
from critical infrastructure businesses and facilities in the 
San Diego area including military installations, airports, 
nuclear facilities, and hazardous material transportation 
companies. This initiative includes an outreach program to 
educate employers on how--the law and its requirements with 
regard to employing foreign nationals in the United States. To 
date, Safe Cities has resulted in the review of more than 1,200 
businesses in critical infrastructure industries and the 
removal of 537 unauthorized employees from businesses and 
facilities, including Camp Pendleton, the San Diego Airport, 
Amtrak, the San Onofre nuclear reactor, Northrop Grumman, 
several naval air stations, and others. These and other 
nationwide critical infrastructure operations demonstrate how 
ICE is using immigration laws to remove potential threats from 
California and from our Nation's most sensitive facilities.
    Because the vast majority of employers do their best to 
comply with the law, ICE has developed the Mutual Agreement 
between Government and Employers [IMAGE]. A new voluntary 
corporate outreach program aimed at strengthening overall 
hiring practices in the workplace, this outreach program 
emphasizes enhanced employer compliance through corporate due 
diligence, training, and the sharing of best practices. It also 
provides employers with a comprehensive tool to avoid 
immigration violations within their own company, and to impact 
their industry and change the culture of tolerance for those 
who employ illegal workers.
    Despite these efforts, the growing prevalence of 
counterfeit documents interferes with the ability of legitimate 
employers to hire lawful workers. In short, the employment 
process cannot continue to be tainted by the widespread use and 
acceptance of fraudulent identification documents. Many of our 
investigations uncover fraud violations linked to other 
Federal, State, and local crimes. Over the past several years, 
the number of benefit fraud and document fraud investigations 
launched by ICE has increased, so have the number of criminal 
indictments, arrests, and convictions in these areas. Given our 
broad ICE authorities, ICE is in a unique position to 
investigate these cases and successfully prosecute the 
perpetrators.
    In April 2006, ICE announced the creation of 11 new 
Document and Benefit Fraud task forces as one of the primary 
methods to eliminate vulnerabilities within the immigration 
process. Modeled after and built upon the successes of the 
Eastern District of Virginia Immigration and Visa Fraud Task 
Force, the Document and Benefit Fraud task forces detect, 
deter, and disrupt criminal organization and individuals that 
pose a threat to national security and public safety through 
the use of documents and benefit fraud schemes. The task forces 
are built on strong partnerships with prosecutors from the 
Department of Justice as well as Federal, State, and local law 
enforcement officers.
    ICE has formally announced these task forces in Atlanta, 
Boston, Dallas, Denver, Detroit, Los Angeles, Newark, New York, 
Saint Paul, Washington, and Washington, DC. ICE is dedicated to 
this mission. Thank you for inviting me, and I'll be happy to 
answer your questions.
    Chairman Tom Davis. Thank you very much.
    [The prepared statement of Mr. Unzueta follows:]

    [GRAPHIC] [TIFF OMITTED] T0527.008
    
    [GRAPHIC] [TIFF OMITTED] T0527.009
    
    [GRAPHIC] [TIFF OMITTED] T0527.010
    
    [GRAPHIC] [TIFF OMITTED] T0527.011
    
    [GRAPHIC] [TIFF OMITTED] T0527.012
    
    [GRAPHIC] [TIFF OMITTED] T0527.013
    
    [GRAPHIC] [TIFF OMITTED] T0527.014
    
    [GRAPHIC] [TIFF OMITTED] T0527.015
    
    [GRAPHIC] [TIFF OMITTED] T0527.016
    
    [GRAPHIC] [TIFF OMITTED] T0527.017
    
    [GRAPHIC] [TIFF OMITTED] T0527.018
    
    [GRAPHIC] [TIFF OMITTED] T0527.019
    
    [GRAPHIC] [TIFF OMITTED] T0527.020
    
    Chairman Tom Davis. Sheriff, thanks for being with us.

                STATEMENT OF WILLIAM B. KOLENDER

    Mr. Kolender. Mr. Chairman, good morning and thank you for 
giving me the opportunity to appear before this committee and 
provide testimony regarding the specific impact of illegal 
immigration on local law enforcement.
    As the chief law enforcement officer of this county and 
with nearly 50 years of law enforcement experience, I know 
firsthand that illegal immigration has plagued local law 
enforcement and this county for decades. Although many illegal 
border crossers enter our country in search of employment, some 
of them do commit crimes in the county and end up in our jails. 
The cost of staff hours, equipment, and administrative work 
associated with the detention and/or arrest of undocumented 
foreign-born citizens is difficult to approximate, but the 
figures are in the millions.
    Without full-time immigration staffing in our jails, we 
don't know the true impact that illegal immigration has on our 
county. Currently, jail personnel notify immigration officials 
of all persons who are booked in jail who claim non U.S. 
citizenship or who are foreign born. Their fingerprints are 
then compared against a Federal data base to help determine the 
immigration status. Immigration authorities place holds on 
these individuals suspected of being here illegally, and the 
jails coordinate their release to immigration officials when 
their local case has been concluded. That process has been 
carried on successfully for more than 4,400 times in the last 
12 months.
    An interesting statistic, though, shows that over an 18-
month period, 25 percent of the individuals deported after 
incarceration not only reenter this country, but reenter our 
jails at least once, some as many as five times. It is 
important, therefore, to recognize that as long as the border 
remains porous, efforts like ours will have very limited 
results.
    San Diego's law enforcement officers do not arbitrarily 
stop individuals solely on suspicion of immigration status 
while patrolling the streets of our county. There must be a 
reasonable suspicion of criminal activity. If there is no 
probable cause to arrest a subject, the officer will complete a 
field interview report and release the individual. However, if 
in the course of an investigation an officer or deputy sheriff 
determines that the subject's immigration status is in 
question, the Border Patrol will be notified and asked to 
respond. If the Border Patrol can respond in a reasonable 
amount of time, the law enforcement officer will remain with 
the subject until their arrival. At that time, the officer will 
relinquish control of the subject to the Border Patrol.
    In preparation for today's hearing I contacted all of the 
police chiefs in this county as well as my own patrol station 
commanders for their impact concerning the illegal immigration 
on their departments and command areas. The responses were 
similar and addressed a common theme. Illegal immigration 
impacts the delivery of law enforcement services in this 
county, affecting calls for service, the crime rate, and our 
budgets.
    Some of the more commonly reported crimes include:
    Auto theft: Cars are stolen and used for transportation. 
Most illegal immigrants arrive in this county without 
transportation and without the means to purchase a vehicle.
    Public drunkenness: This is common throughout the county, 
and sometimes leads to calls for disturbing the peace.
    Domestic violence: Many illegal immigrants come from 
countries where violence against woman is accepted or at least 
tolerated. Some bring this attitude and behavior to the United 
States.
    Robbery: Illegal immigrants commit robberies, but they are 
also victims since they normally carry only cash.
    Traffic offenses: Drunk driving and hit-and-run accidents 
frequently involve unlicensed drivers, and many of these 
drivers are illegal immigrants.
    Recently, during a law enforcement operation in North 
County, over 100 vehicles were towed for a variety of vehicle 
code violations, and the vast majority were driven by those 
believed to be illegal immigrants. Frequent calls for service 
involve loitering and suspicious activity, most of which are 
the result of illegal immigrants congregating in large numbers.
    Day laborers and their encampments also impact law 
enforcement. Residents who fear crime and resent the perceived 
devaluation of their property oftentimes call the Department. 
Aggressive solicitation for work, drinking in public, and day 
laborers using parking lots as restrooms are among some of the 
calls that we receive.
    Many encampments are remotely located, and contacting 
people living in these camps requires multiple officer 
response. The day laborer problems in the city of Vista were so 
severe that the City Council recently enacted an ordinance to 
deal with the issues. Gang activity among illegal immigrants is 
also a big problem. According to my gang enforcement unit, 
nearly 25 to 40 percent of local gangs are comprised of illegal 
immigrants. In North County, nearly 80 percent of the gang 
related crimes involve illegal immigrants either as suspects or 
as victims.
    Significant financial resources in dealing with protests 
and counter protests related to illegal immigration have also 
impacted law enforcement in this county. In 2005, our 
Department alone spent almost $500,000 to provide a presence at 
the various pro and anti-immigration demonstrations. The 
majority of the border between San Diego County and Mexico lies 
within the Sheriff's rural law enforcement command. Much of the 
illegal immigrant and narcotic smuggling comes from this area 
through Mexico. And many of the dealers or end users are in 
fact illegal immigrants.
    Residential and vehicle thefts in this area can be 
attributed to either illegal immigrants themselves or the 
smugglers guiding them across the border. Often, illegal 
immigrants will work off a portion of their payment for being 
smuggled into the United States by carrying narcotics.
    We estimate that as much as 50 percent of the crime that 
occurs in communities immediately adjacent to the U.S. Border, 
Mexican border such as Campo, Boulevard, and Jacumba, is 
committed by illegal immigrants. The rural command does not 
have 24-hour staffing. Resident deputies are called from their 
homes from 911 prowler calls occurring into the late night or 
early morning hours. These calls require that two deputies 
respond and, more often than not, illegal immigrants crossing 
through this area are the culprits.
    Both Border Patrol and Customs routinely turn over illegal 
immigrants to the Sheriff's department that are found to have 
outstanding warrants from their prior visit to the United 
States.
    Illegal immigrants sometimes become the victims of crimes. 
They are robbed, assaulted, kidnapped, and held for payment by 
family members, raped, and murdered. We have seen cases of 
false reporting of crimes where illegal immigrants claim to be 
crime victims so they won't immediately be deported. The 
Sheriff's department frequently receives calls to rescue 
illegal immigrants who are suffering from exposure to extreme 
heat or cold. Many times they lack water, are injured, or 
suffer from fatigue.
    Another example recently of the strain that illegal 
immigration places on law enforcement and firefighters was the 
Horse Fire here that burned nearly 17,000 acres and is 
estimated to have cost nearly $7 million to fight, not to 
mention the 23 firefighters who were injured and citizens who 
were evacuated and displaced for a period of time. The fire 
required sheriff resources for a full week staffing our 
emergency operations center, and as many as 75 deputies were 
committed in the field for possible evacuation of the homes. 
The fire was determined to have been originated by an 
unattended camp fire in Horse Thief Canyon, a regular immigrant 
smuggling corridor.
    As Congress and the President wrestle with these difficult 
issues, it is important that national policy reflect a clear 
understanding of the enormous challenges that local law 
enforcement face in dealing with immigration issues. And 
finally, as Governor Arnold Schwarzenegger of California has 
stated, national security is the responsibility of the Federal 
Government and should not be passed off to State and local 
governments.
    Thank you very much, Mr. Chairman and members.
    Chairman Tom Davis. Thank you very much.
    [The prepared statement of Mr. Kolender follows:]

    [GRAPHIC] [TIFF OMITTED] T0527.021
    
    [GRAPHIC] [TIFF OMITTED] T0527.022
    
    [GRAPHIC] [TIFF OMITTED] T0527.023
    
    Chairman Tom Davis. Chairman Horn, thanks for being with 
us.

                     STATEMENT OF BILL HORN

    Mr. Horn. Thank you. Thank you for the opportunity to 
present San Diego County's testimony. Illegal immigration is 
significant and it has an adverse effect on local government. 
San Diego's proximity to the southern U.S. Border and the fact 
that the county of San Diego's responsible for providing 
essential services only amplifies this effect. I believe the 
illegal immigration issue is far greater than most are willing 
to admit. While current law and circumstances make it very 
difficult to accurately quantify the impact of this problem, it 
is immense.
    My colleagues on the Board of Supervisors and I have 
commissioned a study to approximate the cost of illegal 
immigration on the county treasury. Unfortunately, the study 
will not be completed until late November. Part of the problem 
is that many of the children of illegal immigrants are born in 
the United States and are legal citizens of this country 
entitled to all the privileges that citizenship provides. This 
means that regions across America, and particularly those close 
to the border, are bearing the weight of providing services to 
children whose parents are often not paying taxes for those 
services.
    Border counties have a younger impoverished population. For 
example, according to the U.S./Mexico Border Counties Coalition 
study entitled ``At the Crossroads'' in border counties, 43 
percent of the children between zero and 17 years of age live 
in poverty. In nonborder counties, that's only 34 percent of 
the population. With higher levels of childhood poverty, there 
is a greater demand for government service.
    One of the services San Diego County provides which is 
heavily utilized by illegal immigrants is pre and postnatal 
care as administered by public nurses. While the child, by 
virtue of being born on U.S. soil, is legal, the mother may not 
be. This significantly increases the workload and the wait 
times for public health nurses, making it more difficult for 
those legal residents to get care. While most people in 
violation of immigration laws are here to work, some are here 
to take further advantage of our open society.
    The North County Regional Gang Task Force is a team of 
local, State, and Federal law enforcement groups. They target 
sophisticated street gangs involving major narcotics sales, 
transportation, and smuggling as well as violent crimes.
    In 2005, out of the 448 arrests 232 of them were in 
violation of immigration laws. For the first half of 2006, the 
team already arrested 433 individuals. Of those, 367 are in 
violation of immigration laws. That is a staggering 85 percent. 
This is extremely troublesome. While the daily average of costs 
per inmate in county jails being $90 a day and the average stay 
6 days, the costs alone for the 2006 illegal immigrant arrests 
is at least $198,000. This is not including the expense of 
apprehension.
    Our porous borders and weak immigration laws pose a 
considerable public safety risk. This isn't just about money. 
It's about people's lives. As long as the border is insecure, 
we'll continue to import drugs and violence. According to the 
U.S./Mexico Border Counties study, if the border counties were 
the 51st State, they would rank first in Federal crimes, second 
in incidence of tuberculosis. And I might point out in 1994 
when I first became a supervisor, we had only three cases of 
tuberculosis in the county of San Diego, third in death is due 
to hepatitis, 50th in the percent of population that has 
completed high school, and 51st in the number of health care 
professionals. You can see we're greatly understaffed.
    Reform is necessary for the State and local government to 
continue to provide quality services. State and local 
governments do not have control of the border or control of 
immigration, but they have to live with the effects of this 
every day. The cost of inaction arises every day. We're not 
talking about thousands of dollars, but millions. San Diego 
County may be the gateway to Mexico, but my taxpayers in the 
county of San Diego have become the doormat.
    Every dollar spent providing service to illegal immigrants 
is a dollar that is not used for the taxpaying citizens. And I 
personally think, and my colleagues do, that that is 
unacceptable.
    [Audience cheers and applauds.]
    Chairman Tom Davis. Thank you very much.
    [The prepared statement of Mr. Horn follows:]

    [GRAPHIC] [TIFF OMITTED] T0527.024
    
    [GRAPHIC] [TIFF OMITTED] T0527.025
    
    Chairman Tom Davis. Mr. Escoboza. You need to turn your mic 
on there.

                STATEMENT OF STEVEN A. ESCOBOZA

    Mr. Escoboza. Good morning, Mr. Chairman and Congressman 
Becerra. Thank you for the opportunity to participate in this 
hearing today.
    The Hospital Association of San Diego and Imperial Counties 
is a nonprivate 501(C)(6) trade association that represents 
hospitals on matters of public policy, legislative advocacy, 
public advocacy, and media relations. We're affiliated with the 
California Hospital Association and the American Hospital 
Association.
    The hospital delivery system in San Diego is unique to 
health delivery in the State for many reasons. One obvious 
distinction is our geography in proximity to the U.S./Mexico 
border. Another distinction is that there are no county-owned 
or operated public hospitals. And so private hospitals serve as 
a safety net for all inpatient, emergency, and trauma services 
for all county residents regardless of their ability to pay. 
While this can be attributed to various Federal, State and 
local laws and regulations, it is also so because our local 
hospitals serve the San Diego community as part of their 
overarching mission to provide health care to all who require 
it.
    The health care safety net delivery system in San Diego is 
at capacity and very fragile at this time. A recent and ongoing 
health care safety net study commissioned by the Board of 
Supervisors demonstrates that there are great threats to the 
safety net unless a significant list of challenges posed in the 
study can be addressed. While all these challenges are 
formidable, addressing emergency department overcrowding and 
the access risks that the entire community faces, if 
overcrowding is not a priority issue, is clearly evident in 
this report. The causes of emergency department overcrowding 
are all well documented here. Increased number of uninsured 
people, increased usage by Medicare and Medicaid beneficiaries 
in the ED, work force shortages, especially nurses and on-call 
specialists reduce possible reimbursement, lack of in-patient 
beds and an overall increase in the emergency department 
utilization.
    Exacerbating the problem of increased overcrowding of 
emergency departments is the population of undocumented 
immigrants who do not qualify for the emergency services under 
Medicaid. While there is not yet clear data indicating the 
proportion of immigrants contributing to the over crowding of 
our EDs estimates ranging from 5 percent to 20 percent of ED 
visits in this State are attributed to undocumented immigrants.
    I've been asked by the committee to respond to four 
particular areas of concern to the committee: The fiscal impact 
of legal immigration; how the Emergency Treatment and Labor Act 
[EMTALA], affects health coverage of illegal immigrants in San 
Diego; what measurements can be taken by the Federal and State 
government to curb the burden of illegal immigration in 
California's health care delivery system; and last, how Federal 
Health and Human Services guidelines on Medicaid eligibility 
will impact the health care system in San Diego.
    The California Office of Health--State wide health planning 
development reports that in 2005 uncompensated care, meaning 
charity care and bad debt provided by all hospitals in the 
State was approximately $5.5 billion. Of that amount, 
approximately $1.4 billion is attributed to illegal immigration 
use. In San Diego County, approximately $476 million in 
uncompensated care is provided by local hospitals with 
approximately $119 million attributed to illegal immigration 
use.
    The Emergency Treatment and Labor Act directs hospitals to 
provide medical screening examination to people who present in 
the emergency department, regardless of their ability to pay or 
their immigration status for the purpose of identifying an 
emergency medical condition. While the objectives of this act 
address the core functions and mission of our local hospitals 
to provide quality care to all patients, the ramification is a 
burgeoning patient population flow through the emergency 
departments and trauma centers in San Diego. Again, aggravating 
this growth in our emergency department usage is the population 
of immigrants who don't qualify for emergency medical services.
    Section 1011 of the Medicare Modernization Act of 2003 
targets this population with supplemental resources. 
Unfortunately, access to the funding is contingent upon the 
hospital completing provider payment determination 
questionnaires. The process to receive reimbursement is 
cumbersome and requires additional financial services personnel 
to manage and coordinate the implementation of Section 1011.
    Additionally, hospitals must gather from patients 
complicated immigration documentation which is time consuming 
and rarely forthcoming. Because the Center for Medicare/
Medicaid Services believes that the primary purpose of EMTALA 
services is to stabilize the patient on an emergency rather 
than to cure the underlying illness or injury, under Section 
1011, payment will be made for medically necessary emergency 
services from the individuals from the time of the individual's 
arrival at the hospital emergency department until the patient 
is stabilized.
    While patient stabilization is subject to some 
interpretation by CMS, usually meaning treat and release and 
some admission time, usually CMS will not cover the entire 
patient's stay. CMS believes that most patients are stabilized 
within 2 calendar days after inpatient admission. The cost of 
hospital services provided under Section 1011 should a hospital 
weather the provider payment determination process is very 
limited with all additional inpatient costs being borne by the 
hospital.
    Given their mission and the current Federal law, EMTALA, 
hospitals will continue to provide patient care for all those 
who present in their emergency departments regardless of 
immigration status or ability to pay. Obviously, stronger 
enforcement at our borders that curtails illegal entry would 
curb some of the burden on hospitals. But important also is 
that hospitals want to avoid turning their health care 
professionals and hospital financial people into immigration 
experts. The onerous and cumbersome processes that have been 
put in place or will be put in place under Section 6036 of the 
Deficit Reduction Act distract from hospital operational and 
support services and could ultimately impact patient care. 
Hospital personnel must have the ability to focus on providing 
care rather than worrying about immigration status of patients.
    While sound public health policy dictates that the health 
of communities is enhanced by everyone being able to access 
health care through mechanisms such as EMTALA, there is also a 
need to strengthen border public health efforts along the 
border to address the burden, not just on hospitals and 
emergency departments, but also the threat of communicable 
diseases and environmental risks that impact hospitals, 
clinics, and physician offices indirectly because of the 
border's proximity to San Diego.
    I hope my responses to the areas of the committee's concern 
about illegal immigration on hospitals in San Diego are 
helpful. I'll be looking forward to addressing any questions 
you might have.21Chairman Tom Davis. Thank you very much.
    [The prepared statement of Mr. Escoboza follows:]

    [GRAPHIC] [TIFF OMITTED] T0527.026
    
    [GRAPHIC] [TIFF OMITTED] T0527.027
    
    [GRAPHIC] [TIFF OMITTED] T0527.028
    
    [GRAPHIC] [TIFF OMITTED] T0527.029
    
    [GRAPHIC] [TIFF OMITTED] T0527.030
    
    Chairman Tom Davis. Senator, thank you for being with us.

               STATEMENT OF DENISE MORENO DUCHENY

    Ms. Ducheny. Thank you very much, Mr. Chairman and 
Congressman Becerra. Welcome to San Diego. And we are certainly 
pleased to have the opportunity to testify before you today.
    I would say just for my own self and for your background as 
questions, that my current position in the Senate is to Chair 
the Budget Subcommittee on Health and Human Services. In the 
past, in the Assembly I chaired the Budget Committee of the 
Assembly for several years. And prior to that, I was a 
practicing immigration attorney here in San Diego for over 15 
years, both before and after IRCA.
    And it is in that context, Members, that we want to 
recognize how much this immigration reform debate has become 
highly controversial in Washington, but we sincerely hope that 
significant reform can be accomplished during this legislative 
session. It is also appropriate that you meet in San Diego 
where the realities of immigration, both positive and negative 
impacts, are an integral part of our everyday life. This is 
particularly true in the 40th District which I'm privileged to 
represent, including the entire California/Mexico border and 
adjacent communities in San Diego, Imperial, and Riverside 
counties.
    Let me say at the outset that California has certainly 
experienced costs associated with immigration. You've heard 
from some of my colleagues on this panel today. We certainly 
don't appreciate all the crime that comes with smuggling, that 
occurs with drugs, or human trafficking through our 
neighborhoods. You've heard from some of the locals about some 
of these things. And certainly I want to take the opportunity 
at least to be here to reiterate the State's concern with 
recent cuts to Federal programs which have in the past 
compensated us at least partially for some of these public 
safety and health care costs associated with our position as a 
border State.
    When the Border Patrol brings injured immigrants to our 
hospitals without taking responsibility to pay for their care, 
refuses to assume liability for immigrants who die crossing our 
deserts, throwing the burden of autopsies and funeral 
arrangements on our counties, and when the Federal Government 
refuses to prosecute drug smugglers leaving that responsibility 
to our State courts without any compensation to support 
prosecutions or incarcerations, we are forced to spend scarce 
State resources to meet the needs of safety and security in our 
communities. Some of these State concerns must be addressed if 
we're to have a true Federal partnership, particularly with the 
States on our international borders.
    I would just statistically point out, following on Sheriff 
Kolender's statistics at the county level the most recent data 
I have from our prisons indicates that about 17 percent of 
prisoners in California, about 28,000 out of 170,000 are 
foreign born, of which that can be various status of 
immigration, but foreign born could be even U.S. citizens. 
5,000 of the 170,000 prisoners we hold today are--have 
immigration holds on them. So that gives us some sense at least 
of that universe. Only 5,000 have immigration holds.
    So the volume of crime from this population seems less, and 
as certainly our numbers say, at a lower rate foreign-born 
residents as a lower per capita rate than native born.
    That said, Californians are--clearly understand that we are 
also the beneficiaries of the talent and work ethic brought to 
us by a large immigrant population. A recent Union-Tribune poll 
shows that 70 percent of Californians support comprehensive 
reform including development of a path to citizenship and a 
practical guest worker program to allow immigrants to continue 
their contributions to our communities.
    Our universities have also done compelling research that 
demonstrates the net effect of immigration on California and 
U.S. economies and on our culture has been positive. While the 
precise economic impact of undocumented workers is difficult to 
quantify, we do know that the vast majority work every day in 
this State and others building new homes to meet our growth 
needs, harvesting the crops that feed our people, and have made 
California the No. 1 agricultural producer and exporter in our 
Nation.
    [Audience cheers and applauds.]
    [Audience boos and hisses.]
    Chairman Tom Davis. Now----
    Ms. Ducheny. They also serve food in our restaurants----
    Chairman Tom Davis. You know, everybody, I know there are a 
lot of strong feelings in this room on both sides, but we'd 
like to be able to keep this--the decorum that's appropriate 
for a congressional hearing. And if we don't, we'll have to 
clear the room.
    Go ahead.
    Ms. Ducheny. Thank you very much, Mr. Chairman.
    They also serve food in our restaurants, clean our hotels, 
and maintain our landscapes, all of which benefits one of our 
other largest industries, tourism. Proposals that would 
immediately deport or criminalize this population would have a 
dramatic negative impact on our economy. I point only 
tangentially to yesterday's newspaper here talking about a 
farmer in Salinas who has lost over $200,000 this year because 
he cannot find sufficient workers to pick his crops.
    [Audience cheers and applauds.]
    Ms. Ducheny. Despite the myths that undocumented workers 
send all their earnings back home, corporations across America 
recognize their buying power and eagerly expand their selling 
strategies to capture this growing consumer market. We have 
small business people who don't capture all of the income 
because of the underground nature of much of what is happening. 
But we know that all these workers pay some taxes into our 
system. Many have payroll income tax, Social Security, and 
unemployment deducted from pay each week, although they are 
unable to collect appropriate refunds or benefits from these 
deductions. They pay sales tax every time they purchase clothes 
and shoes for their children or appliances for their homes. 
They pay property tax through rent payments, even if they are 
not homeowners. And our experience shows their U.S. citizen 
children are sure to hold higher paying jobs, pay more taxes, 
and they even have sacrificed their lives as members of our 
armed services.
    The current situation does have costs, and others have 
spoken of that. I believe the largest costs to the State are 
probably those associated with the delivery of emergency health 
care services. Since undocumented immigrants are not eligible 
for temporary assistance to needy families [TANF], SSI, food 
stamps or many of our housing and social services programs, 
emergency health care is the one public program most impacted.
    Researchers at UCLA and USC have also indicated to us that 
immigrants on the whole are less likely to use public services, 
and even before the enactment of the Personal Responsibility 
Act in 1996. That was true then. It's true now since they're 
clearly ineligible for them since the passage of that act.
    Most immigrants, especially those without lawful permanent 
status are employed by businesses who do not provide health 
insurance for them. So we see many patients in emergency rooms 
who would not be there if they had access to preventive care or 
disease management services. Accessing the health care system 
through the most costly avenue, emergency rooms, only 
exacerbates the financial impact on the State. However, even 
with this reality, our research indicates that health care 
costs for immigrants are 55 percent lower than those of native 
citizens. Immigrants as a whole are a younger population, at 
least in California. They are that working age population; 72 
percent are between the ages of 18 and 39. They are the working 
and relatively healthy population and therefore tend to use our 
services at a lower rate than native born citizens.
    All of this leads us, and I believe I speak for the 
majority of my legislative colleagues and on behalf of most of 
our business communities looking to Congress to create the 
opportunity for these hard working neighbors and employees to 
emerge from the shadows of our economy and expand their 
contributions to our society.
    [Audience boos and hisses.]
    Ms. Ducheny. By creating a program of earned legalization 
as proposed by the Senate, we may fully realize the economic 
benefits of this population. Legalized immigrants will pay more 
taxes, be able to acquire health insurance to lessen the burden 
of uncompensated care in our hospitals and become more active 
in our society. This was our experience with immigrants from 
all nations in this State, including those who acquired lawful 
permanent status and became U.S. citizens following the 1986 
passage of IRCA.
    This community wants reform that works for our businesses, 
our economy, and what is good for our families. We must allow 
our economy to continue growing. That demands a work force that 
is skilled in different trades. The vast majority of immigrants 
who have come to this country to work have proven that they 
work hard. It is not helpful to the California economy to 
outsource jobs to other countries when we're unwilling to allow 
the people here to do those jobs.
    You have an opportunity to create meaningful reform based 
on fact and statistics, not politics of fear and rhetoric. We 
hope you will be able to do that in this session. Again, I 
appreciate the opportunity to address your committee. We do 
think investment in economic growth. We need border security. 
But border security also includes fully staffing our border 
crossings, a special plea for those of us from Tecate and 
Calexico to open our border crossings and fully staff them. We 
think that would help with the security, and it would also help 
a lot of people get back and forth across the border for legal 
business on a regular basis. We don't have fully staffed border 
crossings. We don't have fully staffed security in this area. 
And we certainly all want to stop the kinds of smuggling 
activities that Sheriff Kolender talked about.
    We do hope you can recognize that and that you will 
eliminate unreasonable quota restrictions, which also have 
required families to be separated for decades awaiting 
determination of permanent resident status, and that you can 
create a fair, clear, and simplified process for periodic 
importation of temporary labor if and when needed to sustain 
particularly our agricultural economy.
    Finally, I have taken the opportunity to provide your staff 
also copies of a policy--immigration policy statement from the 
Border Legislative Conference of which I'm a member, Border 
State Legislators. And I would also note Western Governors 
Association, the Council of State Governments West, and the 
National Conference of State Legislators have all taken similar 
positions seeking congressional action on comprehensive 
immigration reform.
    Thank you very much.
    [Audience boos and hisses.]
    Chairman Tom Davis. Thank you, Senator.
    [The prepared statement of Ms. Ducheny follows:]

    [GRAPHIC] [TIFF OMITTED] T0527.031
    
    [GRAPHIC] [TIFF OMITTED] T0527.032
    
    [GRAPHIC] [TIFF OMITTED] T0527.033
    
    Chairman Tom Davis. Dr. Anders.

                  STATEMENT OF BRONWEN ANDERS

    Dr. Anders. Thank you Chairman Davis. Mr. Becerra.
    Chairman Tom Davis. Let me just ask. We have one more 
witness to get through. Can we just have some decorum. Let them 
state their case, and then we'll get to questions.
    Thank you, Dr. Anders.
    Dr. Anders. My name is Dr. Bronwen Anders. I've worked in 
pediatric settings in San Diego County for the last 25 years, 
including the University Hospital Primary Care Clinic for 
Children, private practice, community health centers, and I'm 
currently a consultant for the Indian clinics in East San Diego 
County.
    I represent the American Academy of Pediatrics which is an 
organization of 60,000 primary care pediatricians whose--who 
are deeply committed to protecting the health of children, 
adolescents, and young adults in the United States. Our 
testimony at today's hearing will focus on children, the 
innocent victims of illegal immigration. Children, whether they 
are undocumented or not, need care in our communities. Most 
immigrant children's care should be preventive, but too often 
that care is foregone, leading to far more costly and 
frequently inappropriate emergency room and hospital care. 
Unfortunately, immigrant children often do not receive the care 
they need because of Federal, State, and local laws, limiting 
payment for their care or a generalized belief that if children 
seek care, their families or loved ones may become the target 
of law enforcement.
    Early preventive care for children, for instance, with 
asthma and diabetes, can keep them out of much more expensive 
hospital care. One in every five American children is a member 
of an immigrant family. About one-third of the Nation's low 
income, uninsured children live in immigrant families. Children 
of immigrants, often racial or ethnic minorities, experience 
significant health disparities. Many immigrant families also 
have varied immigration statuses that confer different legal 
rights and affect the extent to which these families are 
eligible for public programs such as SCHIP and Medicaid. As a 
result, foreign born children may be ineligible for insurance 
coverage while his or her younger U.S. born sibling is eligible 
as a native citizen.
    Beyond the health status of the child, communities should 
also care about the health of the children who live in them. 
Because immigrant children may have diseases that are rarely 
diagnosed in the United States. Left untreated, these diseases 
may be passed on to the communities in which immigrant children 
reside. Tuberculosis is an example of this that can be readily 
picked up as a preventive screen in well child checks thereby 
eliminating more costly care down the road with some risk to 
the community. In addition, many foreign born children have not 
been immunized adequately or lack documents verifying their 
immigration status. And we described in the paperwork we've 
handed out how measles and mumps epidemics recently in this 
country may have come from populations of under-immunized 
children.
    One of the most important risk factors for lack of health 
coverage is a child's family immigration status. Some children 
in the United States are ineligible for Medicaid and SCHIP 
because of immigrant eligibility restrictions. Medicaid and 
SCHIP are not available to most immigrant children because of 
eligibility restrictions imposed by various Federal laws, two 
examples of which include the sponsor deeming rule and the 
recently promulgated citizenship and identification 
documentation requirements. These bureaucratic delays can 
prevent prompt treatment not only for immigrant children but 
also children new to foster care systems, victims of domestic 
violence, child abuse, and sexual abuse, and teens who might be 
estranged from their families. The paperwork currently required 
for newborns who, by definition are citizens irregardless of 
maternal citizenship leads to unnecessary delays in Medicaid 
benefits.
    Recommendations that we want to propose to lawmakers is 
that they should be aware of and sensitive to the onerous 
financial, educational, geographic, linguistic, and cultural 
barriers that interfere with achieving optimal health status 
for immigrant children. This awareness should translate into 
one, CMS confirming with States that newborns are presumed 
eligible for Medicaid coverage. Paperwork should not delay 
payment for services provided to resident newborns.
    Two, the deemed sponsor rule should be changed so that 
immigrant children are not denied access to care and, by 
extension, quality care.
    And three, the pooling of community resources to address 
unpaid-for care provided by pediatricians in immigrant 
children. Undocumented children receive care from pediatricians 
and other caregivers in the community. Children, families, and 
communities benefit from the provision of this care. 
Communities should not expect those caregivers alone to provide 
the resources needed to furnish this care.
    Four, encouraging payment policies to support the 
establishment of a medical home for all children residing in 
the United States.
    And five, outreach efforts for children who are potentially 
eligible for Medicaid and SCHIP but not enrolled, with 
simplified enrollment for both programs and State funding for 
those who are not eligible for Medicaid or SCHIP.
    In closing, the American Academy of Pediatrics seeks to 
ensure that Congress keep in mind the children we care for as 
it considers restructuring immigration law. Pediatricians and a 
host of other health professionals provide care to children 
throughout the United States. We must not compromise children's 
health in the name of reform.
    Chairman Tom Davis. Thank you very much.
    [The prepared statement of Dr. Anders follows:]

    [GRAPHIC] [TIFF OMITTED] T0527.034
    
    [GRAPHIC] [TIFF OMITTED] T0527.035
    
    [GRAPHIC] [TIFF OMITTED] T0527.036
    
    [GRAPHIC] [TIFF OMITTED] T0527.037
    
    [GRAPHIC] [TIFF OMITTED] T0527.038
    
    Chairman Tom Davis. Let me thank all the panelists. By 
agreement with Mr. Becerra and myself, I'll take 15 minutes for 
questions and then Mr. Becerra will take 15 minutes for 
questions. I understand you have to leave after--we're close, 
Senator. But let me start with our representative from ICE, Mr. 
Unzueta.
    Under the catch and release policy, Border Patrol agents 
are returning many illegal immigrants without prosecution. 
While acknowledging our criminal justice resources are already 
stretched thin, what effect do you think the catch and release 
strategy has had on encouraging people to repeatedly come back 
across the border? And yesterday we were at the border and saw 
that sometimes it takes like 10 different episodes before 
somebody will prosecute just given the burden in the offices of 
the prosecution.
    Mr. Unzueta. Well, I can't speak for the Border Patrol, as 
they're a separate entity within the Department of Homeland 
Security. I can certainly speak to ICE's position with ending 
catch and release. Within the past summer, within this summer, 
Secretary Chertoff has announced the Secure Border Initiative 
Phase II which focuses on interior enforcement as part of that 
strategy. The Office of Detention and Removal, which is 
represented by a different agency head as opposed to myself 
have gone out nationwide and secured additional bed space. In 
addition to that, we have established a command center between 
the ICE's Office of Investigation and Detention and Removal in 
headquarters to coordinate where illegal immigrants are sent 
and where bed space is available.
    In essence, we have eliminated the catch and release policy 
as far as ICE is concerned and the aliens that come into our 
detention facilities. We have plenty of bed space here in San 
Diego and throughout the southwest border. Again, when those 
bed spaces reach limited capacity or when they're reaching 
their maximum capacity we're able to go to this coordination 
center and find exactly where bed space is available.
    Chairman Tom Davis. But if somebody crosses illegally and 
they're caught and the penalty is you basically send them back. 
I mean, that's not a deterrent to try again. Is that fair to 
comment.
    Mr. Unzueta. Well, everybody that we come in contact with--
we're really focused, as far as our strategy, on national 
security and public safety. Our agents work tirelessly in 
complex conspiracy investigations, and our attempt is to try 
and target the highest levels of criminal organizations.
    Chairman Tom Davis. So if somebody has a past criminal 
record and the like, obviously you're going to treat them--
you're going to take care of them.
    Mr. Unzueta. Correct.
    Chairman Tom Davis. They're going to be put away; you'll 
work with Mexican authorities, whatever you have to do. But the 
average person who's just crossing trying to come over here 
looking for a new life who didn't want to go through the 
paperwork, they're sent back basically with a slap on the wrist 
and no penalty in coming back, is that----
    Mr. Unzueta. In all likelihood they will be voluntarily 
returned to Mexico. I don't want to speak for the Border Patrol 
or for Customs and Border Protection, but they have undergone a 
couple of new programs where they're working with Mexican 
counterparts.
    Chairman Tom Davis. The committee is familiar of that.
    Construction industry insiders know where they can go to 
obtain day laborers and get cheap labor. You know where these 
sites are as well.
    What is ICE's policy with respect to day laborer 
congregation points? Does ICE ever establish identification 
checkpoints where immigration documents are evaluated?
    Mr. Unzueta. The day laborer sites haven't been productive 
as far as our enforcement in the posture that we're taking. 
Much of what we've done with work site enforcement is focusing 
on employers as opposed to the employees. Looking at companies 
that are egregious in their behavior of hiring illegal workers, 
and targeting those companies and those industries with 
criminal sanctions as opposed to notice of intent to fine, 
which we found was not very productive.
    Given the numbers of priority areas that we have and that 
our focus right now is on national security and public safety, 
quite honestly, the day laborer sites have not risen on the 
level of priority, and so we aren't focused on those individual 
areas.
    Chairman Tom Davis. Sheriff, you mentioned that the city of 
Vista enacted an ordinance to deal with their day laborer 
problems. We have that in Herndon, in my county. The town of 
Herndon, they were congregating at a 7-11. They set up a day 
laborer site funded by the town, and the voters recalled the 
council in the next election.
    [Audience cheers and applauds.]
    Chairman Tom Davis. Trying to deal--but again, it was the 
Federal Government's failure to deal with the problem, and 
everybody--in fact I've talked to the Mayor about it and he 
said well, everybody said what are you going to do about it. He 
did it, and tough issue for local governments.
    What are the provisions of the ordinance in Vista and how 
is the Sheriff's department working to curb the day laborer 
problems?
    Mr. Kolender. Oh, excuse me. The ordinance basically states 
that you as an employer have to register with the city as 
someone who hires day laborers. And you have a sticker on your 
car that says that. The goal is to knock off the large crowds 
of people.
    Chairman Tom Davis. Been effective or do you have any 
thought on that.
    Mr. Kolender. So far, they say it's been somewhat 
effective. It's relatively new.
    Chairman Tom Davis. OK. Now you cite that nearly 25 to 40 
percent of local gangs are comprised of illegal immigrants. In 
the North County, nearly 80 percent of gang related crimes 
involve illegal immigrants.
    Does your gang enforcement unit work with ICE and the FBI? 
Are we getting good cooperation across different jurisdictional 
line? And if so, how does the Federal law enforcement assist 
your gang unit's efforts?
    Mr. Kolender. When they're arrested, they're turned over to 
them--or they're booked and then it goes from there.
    Chairman Tom Davis. Have they worked with you in gathering 
intelligence on these issues.
    Mr. Kolender. Yes. Yes.
    Chairman Tom Davis. OK. Has there been a--we have recently 
nationally put more money into gang prevention at the FBI 
levels in Washington recognizing that a lot of these gang 
members work across jurisdictions. In fact, in Fairfax, where 
I'm from, people will come from LA and back and forth across 
the borders. And I was in El Salvador last summer where we met 
members trying to get out of MS-13 that had been back and 
crossed the borders several times. This was a tattoo removal 
program they had down there for members who were trying to get 
out of gangs and explain how this works.
    But really it goes across a lot of jurisdictional lines, 
doesn't it?
    Mr. Kolender. Certainly. In fact, we have the MS from the 
Los Angeles here back and forth.
    Chairman Tom Davis. Chairman Horn, as we continue the 
process of strengthening our borders, in your experience as a 
regional leader, what are the most effective strategies? Do we 
need to focus on manpower at Border Patrol which has been 
suggested by some of the other speakers? Do you need more 
fences? You need more cameras? What's the right mix for this 
area.
    Mr. Horn. Well, as my testimony stated, the reality is, I 
think the biggest concern to us at the boards of supervisors is 
that our local taxpayers are being asked to pick up the cost of 
poverty in Mexico. Because that's what's coming across the 
border.
    [Audience cheers and applauds.]
    Mr. Horn. And I--you know, you could put in all the fences 
you want. You can put in all the cameras in you want. The point 
is that--and you mentioned to the Sheriff--I created the North 
County Gang Task Force in 1995. It involves the FBI, the 
Sheriff's department, all the local police departments, ICE, 
and your local Federal attorney, our local district attorney. 
It's been very effective. But the point is that 85 percent of 
the crimes that are committed in North County by the gang 
members are illegal aliens. And they shouldn't be here.
    So somehow the Federal Government needs to take 
responsibility for the border. We are on the borderline with a 
Third World country. To be honest with you, I'm not into 
Mexican politics. I'm only concerned about the health and 
welfare of both the citizens living here and even the 
noncitizens that happen to be here and the costs to my 
taxpayers. We cannot afford this burden. And nobody seems to 
want to pick up the tab for it. And they keep asking us to do 
so. The sheriff mentioned the fire we just had, you know, $7 
million worth of firefighting that took place that came out of 
our budgets that should go to protecting homes of citizens, 
what have you, we protected the Cleveland National Forest 
because somebody illegally came across the border, created a 
campfire and it got out of control.
    So what I'm telling you is it's out of control. And you 
know----
    Chairman Tom Davis. Has the fence made a difference? Where 
the fences----
    Mr. Horn. I think the fence has made a difference where 
it's at. But the problem, the fence is not completed. The 
county of San Diego has over 3 years ago given authorization 
for them to go ahead and put the fence in, and still the fence 
is not completed.
    So I would----
    Chairman Tom Davis. But it makes a difference where you 
have it is what I'm saying.
    Mr. Horn. It makes a difference where you have it. But a 
half done job is a half done job.
    Chairman Tom Davis. I got ya. I got it. OK. Thanks.
    [Audience cheers and applauds.]
    Chairman Tom Davis. Also we've talked about the costs--I'm 
going to get to health care in a second. But schools is a huge 
cost, is it not.
    Mr. Horn. Yeah. I left that part out of my testimony just 
because we're running out of time here, and I'm looking at your 
lights. But now that you ask me the question, I'll give you the 
answer?
    In the county of San Diego, just the education system 
alone, and we don't control the education system at the Board 
of Supervisors. But the cost to educate one child in California 
is significant--and I'm sure the Senator could elaborate on 
that--it's $11,264 per student. And assuming that only 100 
children are of illegal parents and they're attending school 
here, that cost is $1,126,000 a year. And I'm only talking 
about 100 kids.
    As you know if you've read the papers over the years, we've 
had school districts that are collecting--you know, taking 
buses down to the border and filling them up at Tecate and 
bringing them back. I realize the issue with ADA. But the cost 
to the public education system I think is tremendous. I don't 
have jurisdiction over that, and I'm sure Senator Ducheny could 
elaborate on that.
    Chairman Tom Davis. Let me ask Senator Ducheny. You want to 
elaborate on the education--of course some of the kids that are 
born here of course are legal. Their brothers and sisters may 
not be. But again, on the educational components, so much of it 
is State and local funded, Federal Governments 7 percent 
nationally go to school.
    Ms. Ducheny. Probably less in California.
    Chairman Tom Davis. Yeah, it's 2 percent in my county which 
is a very affluent county. Again, the Federal Government's role 
in trying to protect the borders because these are downstream 
costs to local governments.
    Ms. Ducheny. Well, and education is clearly one of the 
larger costs. I didn't address it because I think partly we 
view it as an investment. To a large degree, it is U.S. citizen 
children----
    [Audience boos and hisses.]
    Ms. Ducheny. And often, even children who will become 
citizens at some point in their lives or become lawful 
permanent residents. And when they do that, they tend to have 
that education, they're more likely to be better workers. 
They're higher skilled workers, more likely to pay more taxes. 
I mean, it's sort of a complicated formula when you start 
playing that out.
    Certainly there's a cost of direct----
    Chairman Tom Davis. Let me just ask. Every study I have 
seen shows that an immigrant's success in America is dependent 
upon English language and education.
    Ms. Ducheny. Right.
    Chairman Tom Davis. Those two factors. If you get those 
factors down, you're going to go up.
    Ms. Ducheny. That's our experience here. And so the second 
generation, you tend to see--or third generations, you get 
Congressmen like Congressman Becerra. You know, you--sort of 
second and third generation, you start to see much higher 
income and benefits to the economy. So it's a little 
complicated depending on who the children are. Certainly, you 
know, we have 6\1/2\ million children in schools in California. 
And about a quarter of them come in speaking a language other 
than English.
    Chairman Tom Davis. Well, let me ask this question and 
anybody can answer it. How many of the key children of the 
people that are here illegally just aren't going to school? The 
opportunity is there. Are any of them staying home? They're 
afraid to send them or aren't aware of it, or did they come 
over here to get their kids educated? Anybody have a feel for 
that? Does the educational--school serve as sort of a magnet in 
terms of getting their kids educated.
    Mr. Horn. I can say locally where I live I know the school 
district has a number of kids that are involved, and I think 
the parents want them there and they teach English, they try 
to. But as far as having a number, I think the local laws and 
the State law prevents us from taking that kind of a tally. So 
we couldn't give you an answer for that.
    Ms. Ducheny. But we encourage--we did have some discussion 
of this in the past, and there was some problem--you know, if 
they weren't in school, that would be a bigger problem for 
Sheriff Kolender. So on the whole, we think it's better to have 
them in school than not.
    Mr. Horn. It's Federal law. It's not a State law. That's a 
Federal--that's a Federal law.
    Ms. Ducheny. There's court cases.
    Chairman Tom Davis. Let me just ask our health experts, 
we've closed four hospitals in San Diego area over the last few 
years?
    Mr. Escoboza. That's correct.
    Chairman Tom Davis. Can you walk me through the economics 
of that.
    Mr. Escoboza. Well, we have hospitals in San Diego--we've 
got 19 acute care hospitals here in San Diego, acute care 
meaning they have emergency departments. As my testimony went, 
the burden's really on the emergency department. But with 
respect to the immigrants who may have a traumatic situation 
who go into one of our six trauma centers, the length of stay 
and the cost for the services in that trauma center and result 
in other care in step-down hospitals or other arrangements is 
where the cost just grows dramatically.
    We have hospitals that have very thin margins. I can go 
into a lot of detail about just reimbursement for----
    Chairman Tom Davis. It's a tough business even without the 
nonreimbursement, isn't it, because of reimbursements from the 
government and from HMOs and everything else.
    Mr. Escoboza. San Diego is a high-penetration managed care 
county. And since the mid-80's, we have experimented with 
managed care. As a result of that, though, the base for 
reimbursement from the Federal and State governments in San 
Diego is much lower. So when you compare us to the other 57 
counties in the State or other States where Medicaid, or in 
California Medi-Cal, is reimbursed at a much higher rate, you 
can understand that economically we are in worse shape than 
other hospitals.
    Chairman Tom Davis. I understand the emergency care side. 
What about someone who needs dialysis or something that gets 
very expensive? On those kind of issues are we asking the 
questions? Is there any pecking order? Are people who are here 
illegally eligible for those services as well.
    Mr. Escoboza. Virtually no services available. However, San 
Diego has, I think, a very strong community partnership of 
nonprofits that seek specialists care and try to get people who 
are close to death into some sort of a treatment. There's an 
organization here in San Diego called Reach Out to people who 
specialize in working with retired doctors who try to refer 
these patients to health care. But short of that, that's about 
the only care that's available.
    Chairman Tom Davis. So if you have a very serious illness 
where you're going to need chemotherapy, something of this 
sort, and you're here and you're not documented and don't have 
insurance, it's very difficult to get care. Is that fair.
    Mr. Escoboza. Almost impossible.
    Chairman Tom Davis. Dr. Anders, is that your experience as 
well?
    Dr. Anders. Professionals along the border have worked hard 
to find counterparts south of the border where there's a good 
medical health care system. And we have a good working 
relationship with our professional colleagues south of the 
border. So if it's a nonemergent, long-term care kind of an 
issue--for children, for instance, we know how to direct them 
to good care south of the border.
    What's more, we're building services on the border for kids 
on both sides. And there's been a growing support for a 
hospital right on the border that services children from both 
sides.
    Chairman Tom Davis. What has been the cooperation from the 
Mexican authorities on doing these kind of issues, anybody, on 
the health care side? Any cooperation.
    Mr. Escoboza. Well, we've collaborated with our colleagues 
on south of the border. But frankly, it's a resource issue 
there too. As you know, the government there is very 
centralized. So getting the resources and the attention, the 
public policy that is needed from that side of the border, is 
difficult.
    Chairman Tom Davis. What does ICE do when you get someone 
that's very, very ill? Do you just refer them into the hospital 
system? Do you kind of take charge at that point to make sure 
their health needs are met before you deport them or send them 
back or turn them over to the prison system? How does that 
work?
    Mr. Escoboza. Actually, we have a contract with Alvarado 
Hospital here in San Diego. And any time we need to refer 
somebody there, we use that contract. And I believe our medical 
expenses at the end of this fiscal year will approach close to 
$1 million that's coming out of our budget.
    Chairman Tom Davis. OK. Thank you very much. Mr. Becerra.
    Mr. Becerra. Thank you, Mr. Chairman. And thank you all for 
your testimony. I think you've helped, again, shed some light 
on this. Most of what you've said I think you've said before or 
has been said by someone else. But perhaps by saying it enough, 
maybe we'll see some action taken in Washington, DC, and in the 
White House.
    I want to thank Senator Moreno Ducheny for being here. I 
know that you're going to have to leave. So let me see if I can 
start with you first, Senator, so perhaps you can help respond 
here.
    The House bill that passed back in December took an 
enforcement only approach versus the Senate bill which was a 
bipartisan bill which talked about enforcement, making sure our 
borders are secure, but also talked about dealing with the 
economic needs that you spoke about for the business community, 
agriculture, and otherwise, and also addressing the fact that 
we have a population that some estimate the size of the State 
population of Ohio that resides here with undocumented status.
    Do you have any sense, has anything been done to give you 
and your colleagues in the State legislature and the Governor 
some idea what it would cost the State of California if it were 
to try to apprehend, prosecute, incarcerate, and then deport 
the individuals who are in undocumented status, whatever number 
is in California, but certainly the 10 to 12 million that are 
estimated in the United States?
    Ms. Ducheny. You know, I don't think we have any specific 
costs. I mean, the best I have are some economic studies we 
could give to you that show the needs of our labor force. And 
the fact of our demographics, at least in California, is that 
we have an aging population and sort of a college-age 
population that are big bulks. And the truth of our working 
force, the 18 to 40 to 50, the age that is most productive, are 
in fact largely immigrant labor in this State.
    Now, whether--and some of that's documented and some of 
it's not. But our concern, and I think all our labor force 
studies say we need to focus on that. That goes to the 
education question in part, is keeping that work force so that 
we have the work force that's necessary.
    We have a population that is not growing as much 
internally, I guess is the best way to say it. And so immigrant 
work force has kept our economy growing over the last several 
years. Those who immigrated under IRCA were an example of that. 
You saw the more undocumented coming again later after the 
1990's, after that sort of--you saw the folks who got legal 
status in the early 1990's, you know, came above ground, 
started paying taxes, became U.S. citizens, did the whole 
thing, and then you started to see another demand for labor. 
And I think goes back to the question of you know, nobody wants 
people to break laws. But the question is whether the laws are 
realistic at this point. And at least as a practicing attorney, 
for years and years I watched Congress cutback on the annual 
amounts of immigration quotas that were allowed for family 
reunification and traditional methods of immigration.
    And I think looking at that realistically and trying to 
figure out what is the true number that makes sense as a 
logical ongoing legal immigration is really kind of the 
challenge that I think you guys face.
    Mr. Becerra. Thank you. Let me go to Special Agent Unzueta 
and ask you a question. Because I know that in a recent report 
done by the Inspector General for Department of Homeland 
Security they uncovered the fact that I guess in some cases I'm 
not sure if it was just ICE personnel, but other personnel 
within the Department of Homeland Security were being asked 
because of budget and management issues, shortage of moneys, to 
cut back on your use of gasoline to try to avoid driving any 
more than necessary and to try to conserve as much gasoline and 
other types of activities that would conserve on your 
exhausting of resources as possible.
    So let me ask this question: Given that it's already a 
tight budget to begin with at Department of Homeland Security, 
and certainly I suspect for ICE, would you have the resources 
to go out and try to find and apprehend the 10 to 12 million or 
so undocumented immigrants that we're told are in this country?
    Mr. Unzueta. I think that would be a daunting challenge. 
You know, to go out and try to apprehend those folks would 
literally cripple our ability to conduct any criminal 
investigations and to target any criminal organizations, which 
is really what ICE as criminal investigators is designed to do.
    Mr. Becerra. Let me ask this. I asked in the hearing that 
took place in July here in San Diego of the Border Patrol 
representative what one or two items, if you could be as 
specific as possible, could you most use to help you do your 
work better? And by that I don't mean just a global increase in 
your budget. For example, the representative from the Border 
Patrol mentioned electronic surveillance equipment that was the 
type of drone activity--the drone aircraft that can fly 
unmanned and help us patrol the border itself.
    He also mentioned better tunnel detection equipment, which 
I know you know quite a bit about. Those were the two things he 
said. If I had a chance to say to you, Congress, give me some 
resources so I could secure some equipment, he said overhead 
detection by these drones and better tunnel detection equipment 
are the two things I could best use.
    Let me ask you: What one or two things, if you had a chance 
to tell us and you knew it would happen, that Congress would 
provide it, what would be the one or two things you would say 
you most need.
    Mr. Unzueta. I think the one thing we would be looking for 
right now is a comprehensive immigration reform package.
    [Audience cheers and applauds.]
    [Audience boos and hisses.]
    Mr. Becerra. Let me ask a question now of Chairman Horn and 
also Sheriff Kolender because they deal with this day-to-day 
here in the county of San Diego. In fact, I think Chairman 
Horn, I think you used the words ``the costs of inaction.'' If 
we don't get something done soon, the costs continue to fall on 
the State and local governments. And I know the Senator could 
probably respond to some of this as well, but let me focus on 
the two representatives from the county of San Diego.
    I know that there are some programs that the Federal 
Government has that try to reimburse you for the services and 
activities you undertake that are really--should be federally 
borne, whether it's the incarceration of an immigrant who 
doesn't have the right to be in this country or whether it's 
the provision of a health care service to an immigrant who 
doesn't have the right to be in this country.
    But I think every study, every indicator, every witness 
we've ever heard from has always said it's never been enough to 
fully compensate the local governments for the costs that were 
incurred. The program--both of you I know are very familiar 
with the State Criminal Alien Assistance Program [SCAAP]. It's 
a program that's been in existence for about 11 years now, and 
it's a program that's meant to try to reimburse specifically 
counties for the costs of trying to incarcerate undocumented 
immigrants.
    So far every year that the President has submitted his 
budget to the Congress, he has proposed zero funding for SCAAP. 
And Congress, fortunately, has always funded, to some degree, 
the SCAAP program. Never enough. I think last year we funded--
we gave about $400 million for the SCAAP program nationwide 
California, by itself, as the Senator I think could tell us, 
would consume $750 to $800 million on its own. So clearly $400 
million for the entire Nation isn't going to be enough.
    What would happen if you didn't get whatever your county's 
share of the California SCAAP funding is for this fiscal year 
if you didn't have that money, Sheriff?
    Mr. Kolender. It would obviously have a very negative 
effect on our budget. As the chairman of the Board of 
Supervisors here would be----
    Mr. Becerra. You'd be coming to him a lot more often, I 
suspect.
    Mr. Kolender. Yes, I would.
    Mr. Horn. He comes----
    Mr. Kolender. We all would.
    Mr. Horn. He comes to me too much already.
    I would point out that we estimate alone, just in the 
county of San Diego to incarcerate the prisoners he has in Otay 
Mesa that are not legally here in the country but happen to be 
locked up in our legal jail, it's about $50 million a year. You 
gave us $2 million last year.
    Mr. Becerra. $2 million.
    Mr. Horn. So you owe us $48 million just for last year. So 
it's not a cost that may come in the future. It's a cost that 
his department and my county bears right now. I would just--you 
know, I don't even want to make a profit on you. I'd be happy 
with a 70--you know, a 25 percent discount just on the fees for 
health care. If I could just submit a bill. I don't want to be 
the person that says you're eligible or not eligible.
    I happen to agree that if the child is here, they need to 
be educated. If they're here, they ought to be healthy. If they 
got tuberculosis, I want to attack the problem. The problem is 
we have no control over this border.
    And you mentioned the tunnels. And we have a lot of 
tunnels. We had one big major one----
    Mr. Becerra. Right.
    Mr. Horn [continuing]. With a railroad in it. But you have 
a criminal element on the other side of the border who--you 
know, they're involved in their own government. I would like 
you to quit making treaties and everything else until they 
clean up their act. You are asking us----
    [Audience cheers and applauds.]
    Mr. Horn. I don't blame these folks for wanting to come 
here and work, make their life better and bring their family 
here. In fact, you know, I think that's probably the American 
way; that's why we have a statue of liberty. But at the same 
time, I do not believe that the legal taxpayers of the county 
should be required to pick up the tab because the local 
government doesn't want to address the issue.
    Mr. Becerra. Chairman Horn, I think what you've said most 
everyone would agree that if it's a Federal responsibility, the 
Federal Government should cover that cost. If the Federal 
Government's going to require you to do something, as we do by 
law in certain cases, for example, health care services, that 
we should then pony up whatever the costs would be that go 
beyond what are truly State or local government costs. And I 
think that's one of the reasons why so many of us are desperate 
to try to get a comprehensive immigration reform proposal 
passed this year----
    [Audience cheers and applauds.]
    Mr. Becerra [continuing]. So we can deal with that sooner 
than later.
    Ms. Ducheny. Can I--let me see if I can ask a question of 
Mr. Escoboza and also of Dr. Anders--Senator, did you want to 
say something?
    Ms. Ducheny. I was just going to make one quick comment on 
the SCAAP and then I'll leave. But I remember when I was 
budgeteer in the Assembly in the late 1990's our SCAAP funding 
was--the national funding was $750 million. It was never 
enough. California got about $500 then. We've been steadily 
declining the amount that we get--the proposed zeros and 
Congress gets it back to $300. So when they're saying $300 or 
$400, 10 years ago we were getting $750. That wasn't enough 
then, and it should have been escalating, not declining.
    Mr. Becerra. It's gone down pretty much from the 1990's 
when we were getting a greater share. I think most of us would 
agree with you there.
    I wanted to ask Dr. Anders and Mr. Escoboza on the health 
care side. And it's a tough side because here you're dealing 
with, in many cases, life threatening cases. And as you pointed 
out, and I think Mr. Escoboza you made a very good point about 
this issue of stabilizing the patient.
    The patient comes in, required by law and probably good 
ethical standards in the health community to at least bring 
that person back to a stable position. At some point the 
Federal Government tells you you've stabilized. We no longer 
will cover any costs of that individual who's undocumented to 
be reimbursed by the Federal Government for the costs. The 
hospital, county, the providers can't in most cases just say 
that's when we cut that patient off of any kind of health 
assistance.
    Give me a sense of what now these bureaucratic rules to 
require you now to sort of certify and document who everyone is 
that's coming in. What kind of costs does that impose upon a 
health care provider to try to not only fulfill your ethical 
responsibility but now the Federal mandated responsibility to 
try to stabilize?
    Mr. Escoboza. Congressman, under Section 1011 of the 
Medicare Modernization Act we've had some experience, not a 
lot, because this law just went into effect last year. And so 
we're just collecting data now. But it is an onersome process, 
and you have many hospitals who are unwilling to even attempt 
to get reimbursement because of that burdensome responsibility. 
So we don't have good data yet, but maybe eventually we shall 
get some. And I think the waiting for the next shoe to drop is 
what impact the DRA, Deficit Reduction Act section will have on 
hospital personnel, medical clinicians in the hospital setting 
themselves.
    We know that the State of California sometime later this 
month will put forth its guidelines. But again, just in 
general, I think to focus attention on patient care when people 
present in the emergency department or in one of the wards is 
what health professionals are all about. So whatever can be 
done to find a way to streamline that paperwork, I know 
technology has the potential for doing it in the future. But we 
need a system of identification that doesn't take the health 
care professional or other hospital staff away from taking care 
of that patient when they present.
    Mr. Becerra. And San Diego's hospitals are not able to 
present a bill to the Federal Government for the costs of 
administering this new administrative procedure for documenting 
who's coming in and who's in the hospitals, does it.
    Mr. Escoboza. Correct, sir. It's basically another unfunded 
mandate.
    Mr. Becerra. Dr. Anders, I don't know if you wanted to add 
anything. You need your mic.
    Dr. Anders. Those of us who have worked in community health 
centers over the last few years know that we can no longer just 
decide what kids have and what they need. We need to also 
understand the funding sources. That sort of has been a whole 
additional burden even not just focusing on immigrants. And I 
think that there are a number of funding programs that we've 
become skilled at trying to mobilize. The EPDST program we've 
pushed to its max, but we need to hold on to, to support well 
child checks. We've worked at the community level to do what we 
can to raise funds for pharmaceutical needs of uninsured 
children of whom the undocumented are a high amount. And yes, 
it's complicated. It's challenging, and certainly the immigrant 
issue makes it harder.
    Mr. Becerra. Thank you.
    I have one last question. Let me give you some quick 
statistics. Since 1986 we've increased the budget of the Border 
Patrol which is now--to ICE and Border Patrol under Homeland 
Security. But since 1986 we've increased the budget of the 
Border Patrol by a factor of 10. We have increased man hours 
spent patrolling the border by a factor of eight since 1986. 
And the cost to the American taxpayer since 1986 for this 
activity has increased by about 500 percent. Yet since 1986 
when we had the last immigration reform, we have continued to 
see individuals coming to our country without the right to be 
here.
    All of this money, all of this enforcement, and yet we 
still have unauthorized migration. Many of us believe that in 
order to really cutoff the spigot you have to deal with the 
magnet that's bringing folks in, and that's jobs; that there is 
someone in this country willing to break the law and offer to 
someone who is in this country without authorization an 
opportunity to work. In many cases, that opportunity to work 
comes under some pretty egregious circumstances with some 
pretty exploitive terms for that worker who works in this 
country.
    But until--many of us believe that until we deal with the 
fact that there are employers who are willing to take advantage 
of people who don't have status in this country and are willing 
to work at lower wages under harsher conditions that we will 
not be able to stem the flow of undocumented immigrations. Many 
of us believe we have to figure out a way to come up with an 
identification document that can't be easily and fraudulently 
manipulated. And many of us believe that if we had more 
oversight over those types of work sites where we know 
immigrants tend to concentrate themselves when it comes to 
work, that we could do a better job.
    I'm wondering if anyone has any final thought. And 
certainly, Mr. Unzueta, I would ask you as well as the sheriff 
to make a comment on this, because it's on the enforcement side 
that I'm asking the question.
    Mr. Kolender. Sir, I think that's half of it. I think that 
nothing is going to really make any significant difference 
until we can work stronger with Mexico to get some 
responsibility on the part of their government toward the 
people who live there.
    [Audience cheers and applauds.]
    Mr. Becerra. Good point.
    Mr. Unzueta. Special Agent Unzueta.
    Mr. Unzueta. I certainly agree with many of the comments 
that you've made. And that's exactly why we have focused all of 
our efforts, increased on work site enforcement and developing 
programs like IMAGE where we're working with industry and 
trying to do the right thing. It's also why we have asked for 
the no-match information from Social Security Administration to 
be able to target and to focus effectively on industries or on 
particular companies that are the most egregious and the 
highest level of violators.
    Mr. Becerra. But if I could suggest to you that in the 
process of doing the work site enforcement which is our right 
to do as a sovereign Nation, that if you just deport the 
immigrant or prosecute the immigrant who worked without 
authorization, there's going to be another immigrant that will 
follow the next day.
    Until we really--and I don't think any of us can name more 
than a few employers over the years who have actually been 
prosecuted for violating the law and hiring unauthorized 
immigrant workers. Until we actually go after the employer, the 
price won't be paid. Because there are always any number of 
immigrants, as we've just heard that will come through and try 
to take the job that immigrant who just got deported lost. So I 
think we really have to let the employer community know that 
those who do this the right way, legitimately, we're going to 
reward; but those who will do this unscrupulously, we'll 
punish.
    Mr. Unzueta. I would agree with you.
    [Audience cheers and applauds.]
    Mr. Unzueta. And that is clearly why we're focusing now on 
criminal sanctions. And I hope within the next 30 to 45 days to 
be able to report back to you on a very significant case, 
actually, here in San Diego.
    Mr. Becerra. OK.
    Mr. Unzueta. Thank you, Mr. Chairman.
    Chairman Tom Davis. Thank you. Let me just say to all of 
our panelists, thank you very much. Let me just note that the 
House bill, which I support, is also a bipartisan bill. That 
this thing--these bills, basically the House and the Senate 
come at it--at the whole issue from a different direction. But 
I am convinced after being here yesterday and today, hearing 
your testimony that we have to seal the borders first. If we 
can't do that we're not going to have credibility----
    [Audience cheers and applauds.]
    Chairman Tom Davis [continuing]. In a lot of these other 
areas.
    We also recognize that we do need workers. And you've got 
to find a way to get people from the underground economy into a 
regulated economy where they can pay taxes and start paying 
their own way. And our failure to get any bill means the status 
quo continues. Although, I would note that the current status 
quo, we're not enforcing the laws that are currently on the 
books. And we need to do a better job of that as well.
    [Audience cheers and applauds.]
    Mr. Becerra. Some of the witnesses referred to outside 
studies, and I would ask unanimous consent that they be given--
be able to put them into the record and they'd be part of the 
record of this meeting again.
    Chairman Tom Davis. This has been very helpful to us and 
our committee as we write this up. It's true that each House 
has passed a bill, but I'm not sure that we will get a 
reconciliation of that in the conference in this Congress, so 
this will go toward the record in the next Congress. And also 
we're still in a conference. I'm not sure if Mr. Becerra or I 
will be conferees on that, but I think this has been very 
helpful in terms of building the record. And I appreciate all 
that you all are doing as well.
    Anything else, Mr. Becerra?
    Mr. Becerra. No.
    Chairman Tom Davis. If not, the hearing is adjourned. Thank 
you.
    Mr. Becerra. Thank you.
    [Whereupon, the committee was adjourned.]
    [Additional information submitted for the hearing record 
follows:]

[GRAPHIC] [TIFF OMITTED] T0527.039

[GRAPHIC] [TIFF OMITTED] T0527.040

[GRAPHIC] [TIFF OMITTED] T0527.041

[GRAPHIC] [TIFF OMITTED] T0527.042

[GRAPHIC] [TIFF OMITTED] T0527.043

[GRAPHIC] [TIFF OMITTED] T0527.044

[GRAPHIC] [TIFF OMITTED] T0527.045

[GRAPHIC] [TIFF OMITTED] T0527.046

[GRAPHIC] [TIFF OMITTED] T0527.047

[GRAPHIC] [TIFF OMITTED] T0527.048

[GRAPHIC] [TIFF OMITTED] T0527.049

[GRAPHIC] [TIFF OMITTED] T0527.050

[GRAPHIC] [TIFF OMITTED] T0527.051

[GRAPHIC] [TIFF OMITTED] T0527.052

[GRAPHIC] [TIFF OMITTED] T0527.053

[GRAPHIC] [TIFF OMITTED] T0527.054

[GRAPHIC] [TIFF OMITTED] T0527.055

[GRAPHIC] [TIFF OMITTED] T0527.056

[GRAPHIC] [TIFF OMITTED] T0527.057

[GRAPHIC] [TIFF OMITTED] T0527.058

[GRAPHIC] [TIFF OMITTED] T0527.059

[GRAPHIC] [TIFF OMITTED] T0527.060

[GRAPHIC] [TIFF OMITTED] T0527.061

                                 <all>

</pre></body></html>
